No. 20-315

 

 

IN THE
Supreme Court of the Anited States

JOSE SANTOS SANCHEZ, ET AL.,

Petitioners,
Vv.

ALEJANDRO N. MAYORKAS, SECRETARY OF HOMELAND
SECURITY, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

BRIEF OF AMICUS CURIAE
OXFAM AMERICA IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,764 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

lds

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
